In the Supreme Court of the United States

In Re Gregory Scott Savoy

Case no.

Respectfully Requesting Expedited Treatment

On Petition
from a
Defamation Created by a District Judge
(case no. l:20-cv-00784-LO-IDD)

Appendices

September 11, 2021

Contact: 703-402-8139

Pro Se In Forma Pauperis
Gregory Scott Savoy
DBA Greg Savoy
Hyatt House Herndon
467 Herndon Parkway
Herndon, VA 20170
\
|;
'

■

Filing of September 11, 2021--Savoy

Supreme Court of the United States

\

!
:
I

!
I

•>

«:

!

•\
i
c

Appendix A
v
i

i

i

i

i

/

i

v

i

‘
1

!

’I

I.

Case l:20-cv-00784-LO-IDD Document 42 Filed 03/04/21 Page 1 of 4 PagelD# 1621

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division
Gregory Scott Savoy,
Plaintiff,

)
)
)
)
)
)

:

v.

Peter Franchot, Comptroller ofthe State of )
Maryland, and
)
CRAIG M. Burns, Tax Commissioner ofthe
)
Virginia Department of Taxation
)

Case No. l:20-cv-00784
Hon. Liam O’Grady

)
)

Defendants.

ORDER
This matter comes before the Court on the Defendants’ Motions to Dismiss. Dkt. 17, Dkt.
23. For the reasons provided herein, Defendants’ Motions are hereby GRANTED. Plaintiffs
Complaint against Defendants is hereby DISMISSED.
I.

BACKGROUND

Plaintiff suffers from untreated schizophrenia. Dkt. 1 at 113. He describes himself as
“quasi-homelesS” and receives no government assistance on the basis of his disability, because
any such assistance would be predicated on his taking antipsychotic medication to treat his
schizophrenia. Id. at 118-19.
In the instant action, Plaintiff is suing the Comptroller of the State of Maryland and the
Tax Commissioner of Virginia’s Department of Taxation for “shaking [Plaintiff] down for [his]
meager scraps that [he] had miraculously won there in that underground economy.” Id. at 19. In
other words, he requests relief from his state tax burdens due to the injury he claims to have

l

Case l:20-cv-00784-LO-IDD Document 42 Filed 03/04/21 Page 2 of 4 PagelD# 1622

suffered when he was involuntarily committed for mental'health concerns in the 1980s. Id, at 5.
Plaintiff requests “funds in equity provided from the instigator of these cases” (the instigator being
the federal government). Id. at 165.
II.

LEGAL STANDARD

To survive a motion to dismiss predicated on Fed. R. Civ. P. 12(b)(6), a complaint must
plead sufficient facts to raise a right to relief above the speculative level. Bell All. Corp. v.
Twombly, 550 U.S. 544* 545 (2007). When considering a motion to dismiss under Rule 12(b)(6),
the Court must take the plaintiffs pleaded facts as true, but is not required to accept the plaintiffs
legal conclusions. Ashcroft v. Iqbal, 556 U.S. 662,678 (2009).
A defendant may also submit a motion to dismiss based on Rule 12(b)( 1) for lack of subject
matter jurisdiction. Adams v. Bain, 697 F.2d 1213,1219 (4th Cir. 1982). This type of motion may
argue that the complaint fails to allege facts that establish subject matter jurisdiction, in which case
the plaintiffs pleaded facts will be taken as true; or it may argue that the plaintiff s pleaded facts
establishing subject matter jurisdiction are not true. Id.
III.

ANALYSIS

Plaintiffs Complaint fails to plead sufficient facts to raise a right to relief above the
speculative level. He has sued individuals in their official capacities who are entirely unrelated to
the harm he claims to have suffered, under laws that do not apply to his situation, and requests
relief from a source other than the Defendants he has named. Most importantly, his Complaint is
precluded on jurisdictional grounds by the Eleventh Amendment and the Tax Injunction Act.
The Eleventh Amendment reads: “The judicial power of the United States shall not be
construed to extend to any suit in law or equity, commenced or prosecuted against one of the
United States by citizens of another state, or by citizens or subjects of any foreign state.” By its

2

Case l:20-cv-00784-LO-IDD Document 42 Filed 03/04/21 Page 3 of 4 PagelD# 1623

plain language, the amendment explicitly bars suits against a state by a citizen of another state. In
addition, the Supreme Court has consistently held that “an unconsentirig State is immune from
suits brought in federal courts by her own citizens as well as by citizens of another State.” Edelman
V. Jordan, 415 U.S. 651, 662-663. (1974)
Plaintiff is suing Defendants in their official capacities, not their individual capacities, as
evidenced by the accusations he levies against “the taxation departments” of Virginia and
Maryland, Dkt. 1 at 19; the claim that “the State of Maryland and the State of Virginia were proven
to be intruding by force with their taxation state judgments,” id. at 29; and his demand that he be
“left unmolested by government,” id. at 38. According to the Supreme Court, a suit against an
officer in his official capacity is equal to a suit against the governmental entity he serves. Kentucky
v. Graham, 473 U.S. 159, 166 (1985). The sovereign immunity granted by the Eleventh
Amendment may thus be claimed by a defendant in an official-capacity action. Id. at 167.
The Tax Injunction Act also bars Plaintiffs Complaint on jurisdictional grounds. This act
bars federal district courts from enjoining, suspending, or restraining the assessment, levy, or
collection of state taxes where remedy may be had in state court. 28 U.S.C. § 1341. Essentially,
the Tax Injunction Act is meant to prevent federal courts from involving themselves in the local
concern of state taxes. Folio v. City of Clarksburg, W. Va., 134 F.3d 1211, 1214 (4th Cir. 1998).
This jurisdictional bar is not subject to waiver. Id. Since Plaintiffs claims for relief before this
federal district court center on state tax liability, they must be dismissed because this Court lacks
jurisdiction over them.
Even absent the jurisdictional bars of the Eleventh Amendment and the Tax Injunction Act,
Plaintiffs Complaint fails to state a claim on which relief can be granted. For example, Plaintiff
cites Section 504 of the Rehabilitation Act of 1973, which states that:

3

Case l:20-cv-00784-!_0-IDD Document 42 Filed 03/04/21. Page 4 of 4 PagelD# 1624

• No otherwise qualified individual with a disability in the United States, as defined
.. in section 705(20.) of this, title, shall, solely by reason of,her or his disability, .be
excluded from the participation in, be denied the bcnelits of, or be subjected to
discrimination under any program or activity receiving Federal-'financial assistance
or tinder any program or activity conducted by any Executive agency or by the’
United States Postal Service.
29 U.S:C. § 794(a). .Plaintiff argues that. by. seeking payment oftaxes, Virginia and Maryland have
ignored their Section 504 statutory responsibilities to allow ‘participation’- in the economy,’-’ DkU
1 at 30. Yet Plaintiff does not identify how he was excluded from.participation in any program
beyond his vague reference to ‘‘the economy;" .nor does- he identify any assistance he requested
that was withheld, due process that was denied, or discrimination that he suffered. Furthermore,
the Office of the Comptroller of Maryland and the Virginia Department ot jaxation are state
programs that do not receive federal financial assistance, so this statute cannot apply to them.
IV.

CONCLUSION

Plaintiffs Complaint falls short of stating a claim upon which relief can be granted. His
claims are barred by the Eleventh Amendment, although they could not succeed even if the
jurisdictional deficiency were somehow cured. For these reasons, Defendants Motions to Dismiss
are hereby GRANTED. Plaintiffs Complaint is hereby DISMISSED.
It is SO ORDERED.

1

_____ ;_________

Liam O Grady
United States District Judge

. March
,2021
Alexandria, Virginia

4

Filing of September 11, 2'021-Savoy

Supreme Court of the United States

i
y

.\

;;

•:

V*.
■

V*

r-

K

I

\
I

Appendix B
\

/

i
i

i

;

I
I

'
I

i

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 21-1600
In re: GREGORY SCOTT SAVOY,
Petitioner.

On Petition for Writ of Mandamus. (l:20-cv-00784-LO-IDD)
Submitted: August 19, 2021
Before NIEMEYER, KING, and WYNN, Circuit Judges.
Petition denied by unpublished per curiam opinion.
Gregory Scott Savoy, Petitioner Pro Se.
Unpublished opinions are not binding precedent in this circuit.

Decided: August 24, 2021

PER CURIAM:
Gregory Scott Savoy petitions for a writ of mandamus seeking an order from this
court directing the district court to correct its order entered on March 4, 2021, or to grant
his pending motion to alter the judgment. We conclude that . Savoy is not entitled to
mandamus relief.
Mandamus relief is a drastic remedy and should be used only in extraordinary
circumstances. Cheney v. U.S. Dist. Ct.y 542 U.S. 367, 380 (2004); In re Murphy-Brown,
LLC, 907 F.3d 788, 795 (4th Cir. 2018). Further, mandamus relief is available only when
the petitioner has a clear right to the relief sought and “has no other adequate means to
attain the relief [he] desires.” Murphy-Brown, 907 F.3d at 795 (alteration and internal
quotation marks omitted). Additionally, mandamus may not be used as a substitute for
appeal. In re Lockheed Martin Corp., 503 F.3d 351, 353 (4th Cir. 2007).
To the extent that Savoy alleges a delay by the district court in ruling on his
postjudgment motion, our review of the record does not reveal undue delay in the district
court. To the extent that Savoy seeks an order from this court directing the district court
to act, we conclude that the relief sought by Savoy is not available by'way of mandamus.
Accordingly, although we grant Savoy’s motions to correct the mandamus petition and for
leave to file physical exhibits, we deny the petition for a writ of mandamus. We dispense
with oral argument because the facts and legal contentions are adequately presented in the
materials before this court and argument would not aid the decisional process.
PETITION DENIED

2

Filing of September 11, 2021:-Savoy

Supreme Court of the United States

■

;

i

t

V

V

Appendix C

:

V

r

t

I

i

i
1
i

;
I

I

•1

I

.•

)

'■

I

I
I

Case l:20-cv-00784-LO-IDD Document 36 Filed 02/12/21 Page 1 of

pfagejpff'peOjg
rose

In the U.S. District Court
for the
Eastern District of virmriia
V

AA

(Alexandria Division)
3

Gregory Scott Savoy

.]

]

v.

J

Peter Franchot, et ai

Case no. l:20-cv-00784
Honorable Liam O’Grady

]
]
J

Now Presented
is a Motion for Equitable Relief
Under Rule 60(b)(6) of the Federal Rules of Civil Procedure
in which
Ninth Amendment Repugnancies Committed by “the different parts of the
WHOLE United States"
Justifies the Requested Relief

Notice of Constitutional Question
February 9, 2021

Contact: 703-402-8139

Pro Se
Gregory Scott Savoy
DBA Greg Savoy
In Forma Pauperis
Hyatt House Herndon
467 Herndon Pkwy,
Herndon, VA 20170

■208!

0

Case l:20-cv-00784-LO-IDD Document 36 Filed 02/12/21 Page 2 of 7 PagelD# 1561

Notice of Constitutional Question

Case no. l:20-cv-00784

NOTICE OF CONSTITUTIONAL QUESTION

Under Rule 5.1 (a)(2) of the Federal Rules of Civil Procedure, this is a
formal presentment to the district court of the Notice of Constitutional Question
for case no. l:20-cv-00784, Honorable Liam O’Grady, District Judge, presiding
over the parties.
Organically, this stark Notice, by inference, has always been found in a
litigative mastiff that has been placed on the cover page of all documents filed in
this case-and restated here once again for clarity;
Now Presented
is a Motion for Equitable Relief
Under Rule 60(b)(6) of the Federal Rules of Civil Procedure
in which
Ninth Amendment Repugnancies Committed by “the different parts of the
WHOLE United States”
Justifies the Requested Relief
This simplified phrase explains the plaintiffs party presentation beyond
doubt An action has been brought in a district court of the United States that
tangentially raises the spectre of violence against the Ninth Amendment of the
Constitution of the United States of America.1

1 Additionally, the state constitutions of the states of Maryland and Virginia (and many other
states) retain a clause declaring that unenumerated rights shall remain unrelinquished to
government; these state constitutions broach conformance to the Constitution of the United
States by the use of similar wording, construction, and spirit as found in the Ninth Amendment of
the Con« ututiun of the United States. Therefore, the violence is against their constitutions too.
1

Case l:20-cv-00784-LO-!DD Document 36 Filed 02/12/21 Page 3 of 7 PagelD# 1562
Notice of Constitutional Question

Case no. l:20-cv-00784

The plaintiff named six (6) parties to the proceedings; two under law
(Franchot, Bums) and four under the intervention of equity (AUSA, U.S. Attorney
General, Maryland Attorney General Virginia Attorney General.) On the docket
all six parties are notated at Doc, 10 (7/28/2020) and Doe* 11 (S/14/2020*)
For parties that have been sleeping on their intervention rights, this
plaintiff will now state one of the many facts that comprise clear and convincing
evidence in a civil case that would, if it were a criminal case, be facts beyond a
reasonable doubt These two strong standards of evidence are raised because the
peer reviewed work presented below emanates from within the government
itself;
“However, we observed a pronounced general shrinkage effect of
approximately 20% and a highly significant variation in shrinkage across
brain regions. In conclusion, chronic exposure of non-human primates
to antipsvchotics was associated with reduced brain volume.
-University of Pittsburgh Primate Research Facility,
(National Library of Medicine, NIH; found at Table of
Ninth Amendment Repugnancies, written page 41, ECF
page 45 of 158, Doc. 1, this instant case, case no.
l:20-cv-00784, USDC EDVA-Alexandria Division)
(emphasis added by plaintiff)

In addition to this prime authority from the National Library of Medicine,
which is attached to this Notice, there are additional authorities and provisions
describing this repugnancy. They have been provided throughout this final
proceeding (Savoy III) and two previous “a fortiori” proceedings (Savoy I and
Savoy il) These authorities2 have an interrelatedness that is fully discussed via
2 -to include a mea culpa from the former Director of the National Institute for Mental Health
stating that antipsychotics emphatically do not lead to recovery.
2

Case l:20-cv-00784-LO-IDD Document 36 Filed 02/12/21 Page 4 of 7 PagelD# 1563
Notice of Constitutional Question

Case no. l:20-cv-00784

lengthy metaphor and Greek philosophers in the Motion to Amend, Doc= 30
previously filed on 12/29/2020.3
Because all previous “a fortiori” petitions for a Writ of Certiorari at the
Supreme Court of the United States have been attached to the next sequential
. raising of this single grievance, there has been an establishment of a chain of
custody of the plaintiff’s long held party presentation. It is now in the custody of
this court and the various Attorneys General and/or U.S. Solicitor General (who
also had received service in Savoyl/Savoy II previously to the service of this
instant case in Savoy III.) (Exception: Savoy I involved service upon the U.S.
Solicitor General in exclusivity.)
After reading the attached national study, a reasonable person would ask
why anyone would need 60 days (per 28 U.S. Code §2403) to decide to stop
young American brains from being destroyed beyond repair, (as requested by
statute- 28 U.S. Code §2403 -in Savoy II and Savoy III)
All parties to this proceeding, including this final court, have been lifelong
witnesses to the sustainment of laws, statutes, and judicial proceedings that
involve the repugnancy of requiring citizens to have their brain volume
involuntarily reduced in size; a shocking repugnancy. In terms of stating directly
an unconstitutionality as it relates to specific statutes (as required by 28 U.S.
Code §2403,) there are iust too many statutes to notate-in the same sense that
? The three iterations of this grievance were referenced as three variants of the "Ship of Theseus ”
in which the central holdings must be carried forward in some semblance to the next or previous
iteration in order to have similitude to the "One Grievance” contained in all three proceedings
(ie., following logically the metaphysics of identity-as presented in "Parallel Lives" by Lucius
Plutarchus. Greek uhilosopher with Roman citizenship, 2nd century AD—see generally
patent/royalty law and litigation for related use, found by using the search terms “patent law ship
oftheseus”)

3

Case l:20-cv-00784-LO-IDD Document 36 Filed 02/12/21 Page 5 of 7 PagelD# 1564
Notice of Constitutional Question

Case no. l:20-cv-00784

there were “too many statutes to notate” during the sweeping reformative
actions found in our nation’s Reconstruction Amendments (the 13th, the 14th,
and-the 15th Amendments.) Similar to those eight repugnant decades of slavery,
the repugnancy of brain destruction has survived seven decades of false bias
confirmation by our happy-go-lucky society. So therefore, that’s a whole heaping
super-sized helping of unconstitutional statutes!
The executives and the judiciaries involved in these three proceedings *
exasperated, could easily point their wagging fingers at the next service window,
the third window where hangs the sign “Legislative Branch;” it being the on
lectured solution to unrequited repugnancies. It’s not a new thought, nope. For
that reason, the plaintiff is attaching to this notice an extrsgudicial document
already submitted last year to the Judiciary Committee of the United States
Senate. It is found as the second attachment to this Notice of Constitutional
Question,
This extrajudicial document was this plaintiffs imprimatur to the senate
Atrn
ww

rseers of the judiciary. Exposing a law trap for the plaintiff, it explained how

all law and equity avenues have failed to stop God’s BIG REPUGNANCY, let alone
stop a stark repugnancy under the Constitution of the United States.
So future destroyed souls still await their easy rescue here at the courts.
For new readers to this complaint (perhaps soon to include Attorney General
Merrick Garland,) the most recent public destruction of souls was annotated in
this case by the Supplemental Pleading (Daniel Prude, Doc, 15) and the Second
Supplemental Pleading (Nicholas Chavez, Doc. 16)—but one can assume the
treatment travesty flourished well past those September filing dates of that new
4

Case l:20-cv-00784-LO-IDD Document 36 Filed 02/12/21 Page 6 of 7 PagelD# 1565

Notice of Constitutional Question

Case no. l:20-cv-00784

pleading material at the end of the year 2020 (hey, by the way, did you hear
recently how it all went for that handcuffed and pepper sprayed nine-year-old
girl during her psychiatric distress? How much do you want to bet she was given
antipsychotica “for her own protection?” Want to bet how many rotted souls die
year 2021 will hold? It’s still this court’s gamble.)
But principally, the laws concerning the forced or coerced treatment of the
allegedly mentally ill, the known mentally 01, the known mentally healed, and
the previously unknown mentally healed--all members of the exo-constitutional
realm-will all need revision. Further, there will need to be the removal or
revision of core psychiatric provisions from the very center of the Affordable
Care Act (Obamacare,) national health/welfare programs (medicaid, medicare,)
the directives of the federal executive mental health agencies (SAMHSA, NIMH,
NIH,) and all the varied state programs developed for this beleaguered
population under federal-share funding; WITH ALL OF THESE STATUTES
PREDICATED ON A FALSE STATUTORILY ENFORCED DOGMA REQUIRING
LIFELONG INGESTION OF ANTIPSYCHOTICS!!!! (for those counting, that's four
highly justified exclamation marks.)
All the different parts of the whole United States will need to share
culpability and you will need to begin helping us out of the involuntary hole into
which we were violently thrown.
In sum, for all these reasons stated prior in this Notice and for the pile of
reasons already contained within the complaint filed at this court seven months
ago, this is the formal NOTICE OF CONSTITUTIONAL OUESTION-which
graciously and belatedly sets the clock at 60 days to intervene in a matter raised
5

Case l:20-cv-00784-LO-IDD Document 36* File3To2/12/21 Page 7 off PagelD# 1566
Notice of Constitutional Question

Case no. l:20-cv-00784

during ten years of time4 for all the listed parties served within all “the different
parts of the WHOLE United States"
(Concerning 60 day triggers, see “Committee Notes on Ruies--2006"
under Rule 5,1—Federal Rules of Civil Procedure. For procedures on requesting
extensions see CIVIL ACTION l:10-CV-2850-TCB, ’‘STATEMENT OF
INTEREST OF THE UNITED STATES.”)
2 e>Zl
Respectfully and truthfully submitted on February 9,2912”
under penalty of perjury,

/

J/

Gregory Sco^Savoy
A

jjda

cneg oavuy
As B

^

a a a a

Hyatt Herndon House
567 Herndon Parkway
Herndon, VA 20170

4 The very first surprise garnishment of the plaintiffs subsistence per diem income came without
due process and occurred ten years ago on 2/22/2011 as proven by an IRS form, (see Doc. 30-1,
ECF page 28 of 112, described as "The Archive" found within the complaint at written page 144,
. Doc. 1, ECF page 148 of 158) Please substantively note the address on this IRS generated form.
Plaintiff never lived in Charlottesville, VA. Being the only full witness to her son’s lifelong
destruction, plaintiff’s protective mother resided in Charlottesville, VA, where any troubling
material received in the mail was deflected by her by placement of it in an undisclosed spot.
Plaintiffs faith in God was derived from constant interaction with this individual in the years
before the reduction of brain volume commenced. Three decades later, this close individual
knew innately that the plaintiff was always just a heartbeat away from exiting the
exo-constitutional realm (perhaps by publishing a novel?) and that plaintiff always intended on
making peace with all the “different parts of the WHOLE United States." As stated by her husband
at EXHIBIT G of “The Archive,” (ECF page 87 of 112, Doc. 30-2) both parents did whatever they
could to defend the plaintiff or buy more time; time being God’s currency. She had seen and
experienced enough in those psych wards and state hospitals. No parent should be thrust into
that unchosen crime of unknowingly destroying your own child.

6

Case l:20-cv-00784-LO-IDD Document 36-1 Filed 02/12/21 Page 1 of 2 PagelD# 1567
f

i

A

s

<:

r'

r*

V

•r

/

!
I

f

Notice of Constitutional Question
Case no. l:20-cv-00784
i

i

Attachment #1

p

;<
i

l

i

:■

I

'i

!

caseT¥:2fyw-^iF-OTm

2/5/2021

Comparative Study

anmmfima afe^w^:pgpwf^perittoi •-

Neufopsychopharmacology. 2005 Sep;30(9):1649-61.

doi: 10.1038/sj.npp.l 300710. ..

The influence of chronic exposure to antipsychotic
medications on brain size before and after tissue
fixation: a comparison of haloperidol and olanzapine
in macaque monkeys
Karl-Anton Dorph-Petersen 1, Joseph N Pierri, James U Perel, Zhuoxin Sun, Allan R Sampson,
David A'Lewis
Affiliations

: Affiliation
'•

Department of Psychiatry, University of Pittsburgh, Pittsburgh, PA 15213, USA.

PMID: 15756305 DOI: 1Q.1038/sj.npp.13Q0710

Abstract
It is unclear to what degree antipsychotic therapy confounds longitudinal Imaging studies and post­
mortem studies of subjects with schizophrenia. To investigate this problem, we developed a non­
human primate model of chronic antipsychotic exposure. Three groups of six macaque monkeys each
were exposed to orai haloperidol, olanzapine or sham for a 17-27 month period. The resulting plasma
drug levels were comparable to those seen in subjects with schizophrenia treated with these
medications. After the exposure, we observed an 8-11 % reduction in mean fresh brain weights as weli
as left cerebrum fresh weights and volumes in boin drug-treated groups compared to sham animais.
The differences were observed across all major brain regions (frontal, parietal, temporal, occipital, and
cerebellum), but appeared most robust in the frontai and parietal regions. Stereologicai analysis of the
parietal region using Cavalieri’s principle revealed similar volume reductions in both gray and white
matter. In addition, we assessed the subsequent tissue shrinkage due to standard histological
processing and found no evidence of differential shrinkage due to drug exposure. However, we
observed a pronounced general shrinkage effect of approximately 20% and a highly significant
variation »n shrinkage across brain regions, in conclusion, ohfpnic exposure of non-human primates to
antipsychotics was associated with reduced brain volume. Antipsychotic medication may confound
post-mortem studies and longitudinal imaging studies of subjects with schizophrenia that depend
upon volumetric measures.

Related information
MedGen
PubChem Compound
PubChem Compound (MeSH Keyword)
PubChem Substance

LinkOut - more resources
Medical
C!«nicaiTrials.gov

htipsJ/pubmed.ncbi.nlm.nih.gov/15756305/

1/1

t

Case l:20-cv-00784-l_0-IDD Document 36-2 Filed 02/12/21 Page 1 of 5 PagelD# 1569

Notice of Constitutional Question
Case no. l:20-ev-00784

AMnnlnVM AVI41 <U>0
Auauiiliiciu
-ttCi

Case l:20-cv-00784-LO-IDD Document 36-2 Filed 02/12/21 Page 2 of 5 PagelD# 1570

In the Judiciary Committee
of the

United States Senate
Supreme Court Case no.
18-8407 and future filings
In Re Gv&goiy Scott Savoy
Respectfully
Requesting
Expedited
Treatment

Request for vvMstiebiower Protection
from the U.S. Serrate News Galleries
' and
permission to take action under the Ninth Amendment
July 11,2019

Contact: 703-402-8138

ProSe
Gregory Scott Savoy
DBA Greg Savoy
33 Onondaga Trail
Hedgesviile, WV 25427

Case l:20-cv-00784-LO-IDD Document 36-2 Filed 02/12/21 Page 3 of 5 PagelD# 1571

REQUEST

On July 11,2019,1 today request whistleblower protection at the U.S. Senate in
which protection is sought from punitive actions that can now he taken by the
Radio-TV News Galleries of the U.S. Senate—by virtue of this missive alone.
Under die U.S. Constitution 1 have sought in two proceedings at the U.S. Supreme
Court to correct an exo-constitutional realm that's been set up in America for
victims and survivors of the schizophrenia spectrum of disorders. Relief has not
been provided under either law or equity and it now becomes imperative that the
legislative branch become involved. I have exhausted all avenues of the
Administrative Procedures Act, Inspector Generals, complaints within Judicial
Conduct and Disability procedures, and the lower courts writ large, including a
spurious Article I court which flaunted disability statutes.
Until now I have been prevented by the nature of my employment (as a per diem
s television news earneraman for Reuters Television) from approaching
the legislative branch to continue fighting onward for the rights of the mentally
healed and the mentally ill. This lock-out was established in emails traded with
Ellen Eckert of the gallery all the way back on July 18 of 2012 in which it was
established that the rule provided below would prevent the activities I
envisioned-and that, as a precipitant from credential revocation, my tenuous
connection to the American economy would be dashed if I engaged in such
activity-causing the revocation of my “keys to the kingdom ”
ii

One can simply enter the words “Greg Savoy Reuters” into one's favorite search
engine to see that I have leveraged these kingdom keys to the best avail as a
survivor of schizophrenia.
Although the ’whistleblower protections are set up for federal employees, I have
carried no less public accountability for the services I perform in public under
the credentials of the U.S. Senate and House News Galleries. I deserve the same
protections as would a federal employee, especially since lUJf employment in DC
is contingent solely upon possession of that senate ID badge. I have been a
freelance member in good standing for 22 years, since 1997.
mtr

Case l:20-cv-00784-LO-!DD Document 36-2 Filed 02/12/21 Page 4 of 5 PageiD# 1572

"...sorry! was delayed in answering your email. Unfortunately, the rules for
credentialing would prohibit you from performing the advocacy work you mentioned. I
am listing below the portion that specifically addresses your inquiry:
"Applicants shad further declare that they are not engaged in the prosecution of claims
or the promotion of legislation pending before Congress, the Departments, or the
independent.agencies, and that they will hot become so employed without resigning
from the galleries... that they are not engaged in any lobbying activities; the offending
individual maybe suspended."
I hope this was helpful - Ellen

PERMISSION
Additionally, I request permission from the U.S. Senate to continue mv
claims against the executivehranch in a legal action under the Ninth
Amendment The underlying nature of that executive branch illegality is well
described in the attached Petition for Certiorari which is pending currently and
which is crossing over unresolved into the high courts next term. Although it
was conferenced, there was no denial of certiorari in this last term.
The executive branch’s violation of the Ninth Amendment can be best
understood by Question #2 of the questions presented in case no. 18-8407.
“GIVEN THAT the University of Pittsburgh determined that both
atypical and typical antipsychotic drugs cause a twenty percent
reduction of the volume of the cerebrum, and additionally
concluding that “the chronic exposure of non-human primates to
antipsyehotics was associated with reduced brain volume,” a
white-collar RICO-like structure subsequently quashed this
scientific news about their 20 billion dollar industry that thrives by
selling these chemical restraints that are blessed by a U.S. judicial
deference to the judgment of “professionals-whose decisions are
presumptively valid”rxr>
lYoungberg v= Romeo, U.S. Supre*xie Court,
1982)
(continuing)

Case l:20-cv-00784-LO-IDD Document 36-2 Filed 02/12/21 Page 5 of 5 PagelD# 1573

IS THIS COURT happy with a decision in which clean-handed U S,
citizens have their brains involuntarily reduced in size by twenty
percent while forcibly controlled or coerced under U.S. law and in
which no crimes have been alleged and no trials held?"
If given permission by the U.S. Senate to proceed (which would moot the
gallery’s concerns.) the tmenumerated right to hold one’s own thoughts
(regardless of die subjective quality) will be prosecuted hvthis citizen with
landing who was a recipient of excessive doses of antipsychotic medication for
enough years to establish damages. After four years of destruction, in 1984 this
citizen declined treatment and declined all “government help” and became on
his own power antipsychotic-free and has survived instead for thirty-five years
under God’s care and providence, which further underscores mat mere is a
treatment fallacy afoot in America and at the courts and that there is no path
back to society from mis exo-constitutional realm. If mere was a path out, this
older man dirt Eagle Scout would have already found it and blazed it well for me
AfflOPC
VI4AV1 Ul

Truthfully submitted under penalty of perjury,

Gregory Scott Savoy (DBA Gre^Savoy)
703-402-813JT
//

I

I

/

Filing of September 11, 202i--Savoy

Supreme Court of the United States
\
-i

V

/
;

Appendix D
/

L

i.

\
1
l

t

0

I

*

r

\

m

United States Tax Court

Docket No. 12316-12 L

i*

MOTION TO VACATE
Easter, 2013

;

EXHIBIT G
:

Testimony from WWII Veteran Joseph E. Savoy

l

\i

V
f

i
UNITED STATES TAX COURT;

Gregory SCott Savov
Petitioner(s)
Dockbt-No. 12316-12 L, :

v.COMMISSIONER OF INTERNAL REVENUE,
Respondent

UNSWOR.N DECLARATION UNDE# PENALTY OF PERJURY

1. Jbiepj-f £*

ua

, declare from my personal knowledge that the following facts

are true;

(State the facts in as many numbered paragraphs as are needed. Attach additional pages if necessary.]
i.

H AM THE FATN&R rtF Gjl/r6r>fi y

~

ua y &kib IL / j//=

M/JTM J4/5

AY My r.LJ fc.P/'/yf'r ft ftft PAS ^ AT
}q4 Pat TO fid FARM IZOAti (Apr: V^YyKTUAkTS TjfltoPZTj I/A 04-411.
2 MY WIPJ? AM Fi X PUBYtOUSLY Lh/m AT/K7G/$j2fry'

£>JriARL0TT£?tVltL£) t/A ,2'?<1£>U flu2
W'lTH US ft T TMH j4DD

d^e^nRy^ 0//) AJn~r /_/)/(r
!
______

3
TR.&NSPO/2TJKl£ Afj/3 SAJ/-J T^/l&M ft PjSYYM h/AfcD 1N
ptQ/lJDft TO TMe M&tUCYtL C1FA)T£JZ
d&L AU/ftH& MsA <?
Y/ZefAT&P FaILS.CH!^<oAHIl£NtA FUgm /9%i> y|? I9R4^_______________
4-

PSY£/~f/MT/Z/S7~ fa/A-S D&- Pfifcft A - AGAN. bURJMO OH£
/N Late i<?8*>3 glBcTR-ic. SHoeiz. mm PfcnPasZD ih Qi?iuyt

■ HlM AACte. MQtt/£¥irK 14£ JLtDDfiMLV P&r.A-ut/x/k FA iSufi IT Ia/sKWt Nsr=T)^P
5 Haj &AA.LY
R^FUseD T/Z<±At)m £u t amp prsm that

Point u/j* auppopt^h

HAM IN Hi6 PPPaPT^ He HAS NGV£P Nad

S.&CU1&TY JN LiFB ftNn M/P HftV/r HEJ PFD Aim AS MUCH A< Pi/£ flfthl.
\
I declare Under penalty of peijury that the foregoing is true and correct. Executed on M/SftCH
I
•

%0\ *? CsVh
I
-------

CLu>lf>Jt $. JjaAsnu
v

f

[Signature]

W

OR
[If the declaration is executed outside of the United States:]
I declare under penalty of perjury under the laws of the United States of America that he foregoing is true and correct.
Executed on___

[Signature]
T.C. FORM 18(07/12)

,v

!

Filing of September 11, 2021-Savoy

Supreme Court of the United States

t

i

*v

I*

c

}

A
\
l

Appendix E

;

(
I

/

/

i

i

:

\
}

>
I

I

(

‘

/*>

\

Case l:20-cv-00784-LO-IDD Document 43 Filed 03/05/21 Page 1 of 4 PagelD# 1643

I__i
In the U.S. District Court
for the
Eastern District of Virginia

MAR -5 2021

Gregory Scott Savoy
Case no. l:20-cv-00784
Honorable Liam O’Grady

Peter Franchot, et al

Now Presented
is a Motion for Equitable Relief
Under Rule 60(b)(8) of the Federal Rules of Civil Procedure
in which
Ninth Amendment Repugnancies Committed by "the different parts of the
WHOLE United States"
Justifies the Requested Relief

Motion to Alter Judgment
December 29,2020

Contact: 703-402-8139

U

CLERK. U.S. DISTRICT COURT
ALEXANDRIA. VIRGINIA

(Alexandria Division)

v.

S R\

Pro Se
Gregory Scott Savoy
DBA Greg Savoy
In Forma Pauperis
Hyatt House Herndon
467 Herndon Pkwy,
Herndon, VA 20170

1

Case l:20-cv-00784-LO-IDD Document 43 Filed 03/05/21 Page 2 of 4 PagelD# 1644

Motion to Alter Judgment

Case no. l:20-cv-00784-LO-IDD

Motion to Alter Judgment

The most fundamental facts of this case have been turned into a

r

conclusory medical diagnosis that is pronounced in the very first section of the
district judge's Order of Dismissal (Dkt. 42, filed on 3/04/21.)
“Plaintiff suffers from untreated schizophrenia.1*
-District Judge Liam 0*Grady, Order, Dkt. 42
Plaintiff has nowhere in the pleadings stated this as a fact. Plaintiff
extensively maintained in the pleadings that the University of Pittsburgh Primate
Research Facility confirmed that antipsvchotics destroyed brain tissue. Plaintiff
suffers from extensive damage from exposure to a substance now proven to
reduce brain volume (and from his exposure to both Typical Antipsychotics and
Atypical Antipsychotics, both of which delivered the same results in the study.)
Plaintiff does not suffer from untreated schizophrenia. Plaintiff made
countless invitations throughout the complaint and subsequent documents to
look at the facts in support of plaintiff’s reasonable brain destruction claim.
Attached are two pages of internet search results that the court was invited to
reference in multiple places within the complaint. The court operates currently
over the internet as a public utility. This court has the proven computer skills to

l

Case l:20-cv-00784-LO-IDD Document 43 Filed 03/05/21 Page 3 of 4 PagelD# 1645

Motion to Alter Judgment

Case no. L-20-CV-00784-LO-IDD

easily view this attached document itself, as requested directly by the plaintiff iii
the pleadings, especially since these are PUBLIC DOCUMENTS about PUBLIC
news gathering activities/It is now submitted (Attachment #1.) These PUBLIC
RECORDS don’t look like the “suffers with untreated schizophrenia” as wildly
concluded by the court in absence of medical facts.
Additionally, two Letters of Recommendation from the pleadings (Dkt.
30-1, filed on 12/29/20) should have indicated to the court that it had drawn an
incorrect and harmful conclusory medical diagnosis when it stated, “plaintiff
suffers from untreated Schizophrenia.” Both of these letters from the pleadings
support the plaintiffs claim. The plaintiffs claim is antithetical to the court’s
PUBLIC pronouncement of a medical diagnosis not found in the record since
1983. (Dkt. 30-1)
The first letter is from a staff member of the U.S. Embassy in Moscow
(Attachment #2.) The second letter is from the current President of the United
States of America (Attachment #3.)
Under Rule 59(e,) the defamatory declarations in this Order must be
removed and are cause for both alteration and amendment of the judgment
entered. Fundamental case facts were overlooked that bar dismissal.
“The court explained that under rule 59(e), a motion to alter
or amend a judgment will be granted if the moving party can
show that the court overlooked controlling law or facts that
would have affected its decision.”

•'

• .

- by Alexander G. Najemy (Section, American
Bar Association, May 9,2016-Practice Points)
citing the SDNY decision for Perez v. Terrestar
Corporation, etal. (In re Terrestar Corporation,
etal.)f Case No. 11-10612, Adv. Pro. No. 13-01334
(Bankr. S.D.N.Y. Jan. 15,2016)
2

Case l:20-cv-00784-l_0-IDD Document 43 Filed 03/05/21 . Page 4 of 4 PagelD# 1646

Motion to Alter Judgment

Case no. l:20-cv-00784-LO-IDD

■

i

There is more than cause for this court to go back to the desk and come up
with a non-defamatory work product. This court has shunned fundamental facts
and evidence from the complaint, ail cited within the well-pleaded complaint
(Dkt. 1 and Dkt. 2.) It was even cited at introductory page ii of the filing, “One
Federal Question is Presented.1 (Dkt. 1, ECF Page 2, filed on 7/23/20)
Drawing upon discriminatory beliefs widely held by society, this court has
drawn unsupported and unqualified medical conclusions from the pleadings that
stigmatize the plaintiff and promote nescience.
This motion corrects that adjudicative error.

Under penalty of perjury, this Motion is truthfully
submitted in support of justice on March 5,2020,

Gregory Scott Savoy
DBA Greg Savoy
Hyatt Herndon House
567 Herndon Parkway
Herndon, VA 20170

1 U.S. National Library of Medicine/NIH PubMed ID #15756305, Abstract; 'In conclusion, chronic
exposure of non-human primates to antipsychotics was associated with reduced brain
volume” University ofPittsburgh Primate Research Laboratory-2005

3

Case l:20-cv-00784-l_0-IDD Document 43-1 Filed 03/05/21 Page 1 of 3 PagelD# 1636

Motion to Alter Judgment

Case no. l:20-cv-00784-LO-IDD
*
V

\

\

y

)

;v

i

V

i

Attachment #1

i.

i
i

:
't

I

J.

i

;
\

3/4/2021 Case l:20-cv-00784-LO-IDD

Google

Documejrt^tiro^reEitecb0®0§^3ah Page 2 of 3 PagelD# 1637

greg savoy reuters
Q. ah

HI News

X
0 Images

9 Maps

O Shopping

I More

Settings

$

Q.

Tools

About 96,300 results (0.45 seconds)
www.reuters.com > journalists > greg-savoy

•

GregSavoy-ColumnsrReuters.com
Dec 15,2017 - Reuters.com brings you the latest news from around the world, covering
breaking news in markets, business, politics, entertainment,
www.reuters.com > video > watch

I

Cameraman recalls Charlottesville, one year on | Reuters Video
On August 12,2017, Reuters contract cameraman, Greg Savoy, found
himself in the thick of violent clashes...
Aug 10.2016
Www.facebcok.com > greg.savoy.39

:

Greg Savoy | Facebook
They have nothing to do with the riveting news stories l shoot as a contractor to the North
American desk of Reuters Television. News; Guantanamo bay to BP Oil...
www.supremecourt.gov > DocketPDF pop

• .

Supreme Court of the United States
to input the words, 'Reuters Greg Savoy* in which the works that pile up yearly are updated by
the most recent of the very biggest of national news stories.
www.amazon.com»Greg-Savoy

•

Greg Savoy: Books, Biography, Blog... - Amazon.com
He continues to work as a contractor to Reuters Television News, covering features and breaking
news stories in North America; Guantanamo Bay to the BP Oil...

www.insider.com > Culture

:

What went on inside the office during the Capital... - Insider
Jul 1.2018 - REUTERS/Greg Savoy. Five employees of the Capital Gazette were killed on
Thursday when a gunman fired into the newspaper's office.
www.zoominfo.com >... > Savoy, Greg

•

Greg Savoy: Business Profiles | Zoomlnfo.com
Find contact and company Information for business people in our free business information
database. This directory covers Greg Savoy.
abcnews.go.com > story

s

How a Maryland paper covered a mass shooting in its own...
Jun 29,2018 - PHOTO: Capital Gazette journalist E.B. *Pat' Furgurson II) takes notes with two
other. Greg Savoy/Reuters. Capital Gazette journalist E.B. 'Pat*...
www.thedailybeast.com > harvey-makes-second-landfaL.

Harvey Makes Second Landfall as Death Toll Climbs
Greg Savoy/Reuters. While Houston began to get somereOef from Harvey on Wednesday, the
storm moved on to submerge several smaller Texas cities before

!
What went on inside the office during the Capital Gazette...

www.businessinsider.com > Politics > Media

Jul 1,2018 - REUTERS/Greg Savoy. Five employees of the Capital Gazette were killed on
Thursday when a gunman fired into tire newspaper's office.

httpsV/www.google.com/search?q=greg+savoy+reuters&;lz=lCAJQUA_enUS883&oq=greg+savoy+reuters&aqs=chrome.0.69i59.4638jOj7&sourceid=...

1/2

3/4/2021 Case l:20-cv-00784-LO-IDD

Google

Dqcume«»^re^dG0«©©ta!» Page 3 of 3 PagelD# 1638

greg savoy reuters
Q. All

m News

X
0 Images

<9 Maps

Q Shopping

l More

i

Q.

Settings . Tools

Page 2 of about 93,200 results (0.72 seconds)

:•
At Least 5 Dead in Maryland Newspaper Shooting

jewishJoumal.com > news > united-states > least-5-dead-m...

Travel * Judaism - Holidays • Obituaries - Poetry - Torah - LA Calendar - Marketplace - Streaming
. . Guide• Advertise.-REUTERS/GregSavoy.NewsUhitedStates...
In.news.yahoo.com > post-state-america-star-hanks-says...

: .

The Post' is about the state of America, star Hanks, says

,

Dec 15,2017 - By Greg Savoy. WASHINGTON (Reuters) - Steven Spielberg's new movie The
Post’ isn't just a 1971 tale of press freedom or the place of ...
www.lihkedin.com > greg-lee-1 a467a16

i

Greg Lee - Senior Marketing Analyst - Thomson Reuters...
Greater Minneapolls-St Paul Area - Senior Marketing Analyst - Thomson Reuters
View Greg Lee's profile on Linkedin, the world's largest professional community. Greg has 1 job
listed on their profile. See the complete profile on Linkedin and ...
morungexpress.com»erdogan-supporters-stand-guard-cr...

:

Erdogan supporters stand guard as crushed coup bid shakes...
ISTANBUL/ANKARA (Reuters) ■ Turkish President Tayyip Erdogan's supporters rallied in public
squares,... REUTERS/Greg Savoy/Reuters TV[/caption] (caption!..
www.buslnesslnsider.com > Politics > Media

j

What went on inside the office during the Capita! Gazette...
Jul 1,2018 - REUTERS/Greg Savoy. Five employees of the Capital Gazette were killed on '
Thursday when a gunman fired into the newspaper’s office.

:
Crowds pack Black Lives Matter Plaza near White House to...
reuters.screenocean.com > record

(Production: Greg Savoy, Martin Veal); Copyright Holden REUTERS; Copyright Notice: (c)... Open
For Restrictions • http://aboutreuters.com/fulllegal.asp ...
reuters.screenocean.com > record

s

Washingtonians enjoy rare snowfall | Reuters Archive Licensing
(Production: Greg Savoy. Kristin Neubauer); Copyright Holder: REUTERS... http
y/about.reuter8.com/fuIIIegal.asp; Embargoed:! 4th February 2021 17:24; Usage...
www.npr.org > active-shooter-at-maryland-newspaper

:

Capital Gazette Newsroom Shooting That Left 5 Dead Was ...
Jun 28,2018 ~ Greg Savoy/Reuters. Updated at 8:20 a.m. ET on Friday. Five people were killed
and at least two others were wounded in a shooting at the...
www.alamy.com»girts-fronvcub-scout-den-13-a-subu...

s

Girls from Cub Scout Den 13, a suburban Virginia Cub Scout...
May 20,2018 -... taken May 20,2018. REUTERS/Greg Savoy • 2CJ1541 from Alam/s library of
millions of high resolution stock photos, illustrations and vectors.
www.houstonpubllemedia.org> 2018/06/28 > attachment

:

rtsl ubr7_slide... - Houston Public Media
Jun 28,2018 - Police officers talk to a man as they respond to a shooting at the Capital Gazette.
Credit: Greg Savoy/Reuters/Via NPR. File Information: File Type:...

*= https://www.google.com/search?qsgreg+savoy+reuters&riz=lCAJQUA_enUS8834sxsrf=ALeKk03NG7iOSOHQvltMqml6m3yPCwqSRg:16149051303...

1/2

Case 1:20tCv-00784-LO-IDD Document 43-2 Filed 03/05/21 Page 1 of 2 PagelD# 1639

Motion to Alter Judgment

>

Case no. l:20-cv-00784-LO-IDD

•:

;v

:•

b

;

Attachment #2

t

I

!
!
I

:■

J

l

\

Embassy of the United States of America

March 16, 1993
To Whom It May Concern:
I read vith great interest a documentary film proposal submitted
by Mr. Greg Savoy of "Rising Earth Productions.1* I was very
favorably impressed vith the conceptualization of the project, the
business plan developed by "Rising Earth", and vith the quality of
the individuals devoting their efforts to this project.
While USIA is by lav prohibited from funding any program
intended for an American audience, I would like to offer my
personal recommendation of this project. The subject matter is of
vital interest to all of us, and joint Russian - American
cooperation vill create audience interest in both countries, and
hopefully generate goodwill and positive action.
Sincerely,

carol Lynn Maccurdy
Assistant information Officer
United States Information Agency
Moscow, Russia

Case l:20-cv-00784-l_0-lDD Document 43-3 Filed 03/05/21- Page 1 of 2 PagelD# 1641
Motion to Alter Judgment

Case no. l:20-cv-00784-LO-IDD

*\

■

\

;.

>

i.

'A
0

A'

Attachment #3

i

i
j

i
i
i

t

v.'

*

OiUWARf

d>oDum©nfea04l3-J=ile«li^c£j(2S/M)r2 f’ase^ 2>t>lia:^a®«ifl^LKitea? 4 S'
1

Hnitcd States Senate
WASHINGTON, OC 20$ 10-0802

December II, 1992

Mr. Greg Savoy
Rising Earth Productions
229 Plorence Ave.
Wilmington, DB 19803
Dear Mr; Savoys
Thank you for providing me with information you learned
during your recent trip to Serbia.
I will be sure to pass on your insights to the proper
agencies•
Again, many thanks.

Best wishes.

Filing of September 11; 2021-Savoy

Supreme Court of the United States

1

:
\

:•

Appendix F

i

/

■
i,

t

:
I.
i

I

1
I

)
•!
;
1
I

TABLE OF
NINTH AMENDMENT REPUGNANCIES
These peer reviewed studies that follow are held in the U.S. National.
Library of Medicine, therefore, they embody the definition that the federal courts
currently utilize for. “clear and convincing evidence” The studies that follow
invalidate national policy for the mentally ill, they invalidate the U.S. Statutes
that support coercive treatment, and they invalidate the wild overgrowth of state
and federal laws emanating from these unconstitutional executive branch
policies that were formulated with no regard to the Constitution of the United
States, let alone formulated with no regard for the Ninth Amendment in isolation
from that constitution, as contained in that basic inceptual pamphlet that was
intended for citizen use when sounding the general alarm, the Bill of Rights.
#1) U.S. National Library of Medicine/NIH PubMed I.D. #15756305
.Neuropsychopharmacology. 2005;30(9):1649-1661. doi:10.1038/sj.npp.l300710
Also found at; https://www.nature.com/articles/1300710
A quashed study concerning repugnant brain shrinkage;
“The influence of chronic exposure to antipsychotic medications
on brain size before and after tissue fixation: a comparison of haloperidol
and olanzapine in macaque monkeys,” a study by the Department of
Psychiatry, The University of Pittsburgh, year 2005
Excerpt from Abstract, emphasis added bv plaintiff“However, we observed a pronounced general shrinkage effect of
approximately 20% and a highly significant variation in shrinkage across
brain regions, in conclusion, chronic exposure of non-human primates
to antipsvchotics was associated with reduced brain volume.
41

#2) U.S. National Library of Medicine/NIH PubMed I.D. #22340278
A quashed study by Dr. Marin Harrow88 in which the answer is found to be
:an emphatic “NO!” The study is found on page D-16 of EXHIBIT D, “Petitioner’s
Most Recent Correspondence,” and instructions on how to locate this study are
found in the section of this complaint called“The Archive,” page 143.
“Do all schizophrenia patients need antipsychotic treatment
continuously throughout their lifetime? A 20-year longitudinal study.”
Harrow Ml, Jobe TH, Faull RN 2011

#3) U.S. National Library of Medicine/NIH PubMed I.D. #12197445
A journalistically quashed study in which Americans can rediscover
Justice Thomas’s “Big Contradiction;”89 it’s a one hundred year old eugenics
movement that has been covertly operating against African-Americans, against
the mentally disabled in America, and against those with “undesirable traits,”
with all three groups swept up together in a profitable brain destruction scheme
with no protesters left intact but for a few hobbled escapees or their mutated
“Posterity” in future times;
“Differential prescription of maintenance antipsychotics to African American
and white patients with new-onset bipolar disorder.” August, 2002 Bipolar and
Psychotic Disorders Research Program, Department of Psychiatry, University of
Cincinnati College of Medicine, Cincinnati, OH 45267-0559, USA.
BACKGROUND; “Antipsychotic medications are commonly prescribed as
maintenance pharmacotherapy for patients with bipolar disorder. However,
double-blind, placebo-controlled studies have vet to demonstrate a significant
prophylactic effect of maintenance antipsychotic use in bipolar disorder, and
long-term use of antipsychotics may place the patient at risk for
neuroleptic-induced tardive dyskinesia. African American patients may be at
increased risk because excess antipsychotic prescription appears to be common
88Head of Psychiatry, University of Illinois at Chicago, School of Medicine
89 “
The Big Contradicton” is a description of slavery by Supreme Court Associate Justice Clarence
Thomas, as described on Youtube during “The Joseph Story Distinguished Lecture with Justice
Clarence Thomas,” Heritage Foundation, October 28, 2016 (the Youtube timecode is 52:04)

42 '

in this population, although this issue has not been longitudinally studied in
. bipolar disorder.”
(emphasis added by white petitioner)
CONCLUSION: “Even when demographicallv similar to white patients. African
. Americans with bipolar .disorder may be more likely to receive maintenance
antipsychotic,treatment. The specific reasons for this finding are not clear, ' .
suggesting that studies are warranted that examine clinicians’ rationale for
differentially prescribing antipsychotics for African American and white patients
during the early course of bipolar disorder.”
[emphasis added by white petitioner--for the relevance of this “tie-in,”
please see the Savoy II docket at the Supreme Court of the United States (case no.
18-8407,) Petition for Certiorari, last paragraph of page 291
4) U.S. National Library of Medicine/NIH PubMed I.D.#28441173
A journalistically quashed study in which faith in God is treated as one
justification for longer involuntary commitments, among other justifications for
forced fraudulent medical treatment under law involving a destructive poison
marketed as “antipsychotics” and “atypical antipsychotics.”
EXCERPT; “These results suggest that a brief measure of
religious activities may identify psychiatric inpatients at greater
risk for psychosis, suicidality, and longer hospitalizations ”
“Religiosity in Acute Psychiatric Inpatients: Relationship With
Demographics, Clinical Features, and Length of Stay”
Department of Psychiatry and Behavioral Sciences, The
University of Texas Health Science Center at Houston; and
Harris County Psychiatric Center, Houston, Texas. June 2017.
5) www.fugitivepsychiatrist.com/psychiatry-on-antipsychotics-seroquel/
An informal study in which an anonymous psychiatrist takes his own
medicine-with after-action fears of professional retaliation against his own
radical first-hand-report a fortiori; hence, he’s a fugitive. He writes an hour by
hour diary detailing his own brain destruction. The conclusion;
“I can’t believe I have patients walking around on
800mg of this stuff. There’s no way in good conscience I
could dose this BiD unless a patient consented to 20 hour s

43

of sleep a day. i’m sure there’s a niche market for this med
though. There has to be a patient population that doesn’t
want to feel emotions, work, have sex, take cafe of their
homes, read, drive, go do things, and want to drop their IQ by
100 points.”
-The Fugitive Psychiatrist, January 26, 2018.
note: “BID” is a pharmacy abbreviation which
stands for “bis in die,” which is latin for “twice, a
day.”

6) A Mea Culpa from national psychiatric leadership
https://www.nimh.nih.gov/about/directors/thomas-insel/blog/2013/antipsychotics
-taking-the-long-view.shtml
A journalistically quashed confession in which the Director of the National
Institute for Mental Health questions the efficacy of antipsychotics thereby
questioning the current fundamentals of psychiatry, (now a former
Director of the NIMH, naturally.)
Two excerpts;
“Recently, results from several studies have suggested that
these medications may be less effective for the outcomes that
matter most to people with serious mental illness: a full return to
well-being and a productive place in society”
“These new data on the long-term outcomes for people with
“schizophrenia” remind us that 100 years after defining this
disorder and 50 years after “breakthrough” medications, we still
have much to learn.”
-Dr. Thomas Insel, excerpts from the Director’s
Blog, August 28, 2013, “Antipsychotics; Taking
the Long View” (at www.nimh.nih.gov)

44

!

Filing of September 11, 2021-Savoy

Supreme Court of the United States
j

[

>

/

y

>•:

•:

*;v*

V.

I

Appendix G
"j

\
1

I

4

/
.k.

i

Maryland Tax Court
MTC No. 19-IN-00-0839

- Gregory Scott Savoy ; V/

->

Comptroller of Maryland

Respectfully
Requesting
Expedited
Treatment

EXHIBIT # YV

August 18, 2019

Gregory Scott Savoy
(DBA Greg Savoy)
467 Herndon Parkway
Herndon, VA 20170

